WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8133

Silas Wilson, Jr. Keith C. Reid, et al.
(Petitioner) V. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO I am filing this waiver on behalf of all respondents.

© T only represent some respondents. I am filing this waiver on behalf of the following respondent(s)

Keith C. Reid; Gerald M. Bender; Chuck Jordan; G.T. Bynum; City of Tulsa.

Please check the appropriate box:

© lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: « =
Date: 6/16/21

(Type or print) Name Gerald M. Bender

© Mr O Ms O Mrs. O Miss
Firm City of Tulsa, Office of the Clty Attorney
Address 175 E. 2nd Street
City & State Tulsa, Oklahoma Zip 74103
Phone 918-596-7717 Email ghender@cityoftulsa.org

A copy of this form must be sent to petit:
name(s) of the recipient(s) of a copy of t

 
  

ers counsel or to petitioner if pro se. Please indicate below the
s form. No additional certificate of service or cover letter is required.

Silas Wilson, Jr.
